COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE


  OFFICE OF THE
INSPECTOR GENERAL




    FOR THE PERIOD ENDING SEPTEMBER 30, 2008
                            u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                              November 3, 2008
Inspector General




      TO:            Walter L. Lukken
                     Acting Chairman

      FROM:          A. Roy Lavik
                     Inspector General
                                       Q      R~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

              Attached is the Semiannual Report of the Office of the Inspector General for the period
      from April 1,2008 through September 30, 2008. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
            OFFICE OF THE INSPECTOR GENERAL
         COMMODITY FUTURES TRADING COMMISSION

                            SEMIANNUAL REPORT
                            FOR THE PERIOD FROM
                   Aprill, 2008 THROUGH September 30,2008

                            TABLE OF CONTENTS

INDEX OF IG ACT REPORTING                                                             iii

EXECUTIVE SUMMARY                                                                      1

INTRODUCTION                                                                     '"    2
 CFTC Programs and Operations                                                          2
 OIG Responsibilities                                                                  2
 OIG Resources                                                                         3
COMPLETED AUDITS and REVIEWS                                                           4
 Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA         .4
 Evaluation of the CFTC Information Security Management Act, FISMA                     .4
 Review of Agency Use of Contractors                                                    4
CURRENT AUDITS and REVIEWS                                                             5
 Audit of CFTC Financial Statements for Fiscal Year 2008                               5
AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD                                          7
 Corrective Action not Completed                                                       7
 Corrective Action Completed                                                           7
 Management Decision not Made                                                          7
INVESTIGATIONS                                                                         7
 Investigation Regarding the Interagency Task Force on Commodity Markets Interim Report
 on Crude Oil.                                                                          8
 OIG Response to Allegations Regarding the Transit Subsidy Program                      8
 OIG Response to Allegations Regarding CFTC Contracts                                   8
SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL AUTHORITIES                               9

CONGRESSIONAL INQUIRIES                                                                9

LEGISLATIVE, REGULATORY AND RULE REVIEWS                                               9
 Introduction and Summary                                                              9
 Rule Reviews Initiated in Previous Reporting Periods                                  9
  Rule Reviews Initiated this Reporting Period            9
  Legislative Activities                                 10
OTHER REVIEWS                                            10
  Peer Reviews                                           10
  Other Reviews                                          10
SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD           11

REVISED MANAGEMENT DECISIONS                             11

INSPECTOR GENERAL DISAGREEMENT                           11

GAO LIAISON                                              11

STRATEGIC PLAN FOR THE OFFICE OF THE INSPECTOR GENERAL   12
  Investigative Agenda                                   12
  Legislative and Regulatory Review Agenda               12
  Audit Agenda                                           13
    Introduction                                         13
    Annual Audits                                        13
    Other Audits                                         14
    Resources Required                                   15
CONTACTING THE OFFICE OF THE INSPECTOR GENERAL           15

Table 1 - Reports Issued with Questioned Costs           16

Table 2 - Reports Issued with Recommendations            17




                                                 11
                          INDEX OF IG ACT REPORTING
                                REQUIREMENTS

Section 4(a)(2)                  Review oflegislation and regulations                                       9

Section 5(a)(1 )                 Significant problems, abuses and deficiencies                              1

Section 5(a)(2)                  Recommendations with respect to significant problems             '"        1

Section 5(a)(3)                  Significant recommendations that have not been completed                   7

Section 5(a)(4)                  Matters referred to prosecutorial authorities                              9

Section 5(a)(5)                  Summary of instances where information was refused                        11

Section 5(a)(6)                 Completed audit reports                                                     .4

Section 5(a)(7)                 Significant audit reports                                                   .4

Section 5(a)(8)                 Statistical Table-Questioned Costs                                         16

Section 5(a)(9)                 Statistical Table-Funds Recommended for Better Use                         17

Section 5(a)(10)                Audit reports lacking management decision                                   7

Section 5(a)(1 1)              Significant revised management decisions                                    .11

Section 5(a)(12)               Significant management decisions where the IG disagrees                     11

Section 5(a)(13)                           .Information described under the Federal Financial Management     6
............................................ Improvement Act of 1996                                         ..

Section 6(b)(2)                 Summary of reports to Chairman where assistance was refused                11




                                                      111
                              EXECUTIVE SUMMARY

        This semiannual report is issued by the Commodity Futures Trading Commission's
(CFTC's) Office ofInspector General (OIG) pursuant to the Inspector General Act of 1978, as
amended. It summarizes OIG's activities and accomplishments for the period April 1, 2008,
through September 30, 2008. During this period, OIG completed one audit, one evaluation and
one review, and began one audit. OIG completed one investigation and responded to various
allegations of wrongdoing. OIG also responded to Congressional inquiries, commented to
Congressional staff on pending legislation, reviewed rules proposed by CFTC and by regulated
entities, participated in training, monitored peer review activities, visited CFTC field offices and
participated in Government-wide OIG professional and cooperative meetings and activities.

       Highlights of OIG's completed and ongoing audit, evaluation and investigative projects
include the following:

    •   OIG completed the fiscal year (FY) 2008 audit of compliance with the Federal Managers'
        Financial Integrity Act (FMFIA). No significant issues were reported.

    •   OIG completed the FY 2008 Federal Information Security Management Act (FISMA)
        independent evaluation. No significant issues were reported.

    •   OIG completed a review ofthe Agency's use of contract employees. While no
        significant issues were reported, OIG made recommendations that may improve the
        operational effectiveness of the CFTC information technology help desk.

    •   At the request of four U.S. Senators, OIG completed an investigation into allegations of
        wrongdoing pertaining to the Interagency Task Force on Commodity Markets Interim
        Report on Crude Oil issued in July 2008. While no misconduct was found, OIG
        criticized the means of providing relevant information. The disclosures were not
        transparent and raised questions sufficient to give rise to the suspicions that triggered the
        Senators' request.

    •   OIG responded to discrete allegations pertaining to the CFTC transit subsidy program.
        The evidence did not warrant referrals to the Agency or law enforcement for further
        action.

    •   OIG responded to allegations pertaining to CFTC contracts. No referrals were made to
        the Agency or to law enforcement.




                                                  1
                                   INTRODUCTION
1.     CFTC Programs and Operations.

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992 and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of 2000 (CFMA). In May of 2008, Congress reauthorized the CFTC through Fiscal Year
2013.

        The CFMA transformed the CFTC from a front-line regulatory agency to an oversight
regulator. The CFTC continues to be responsible for fostering the economic utility of futures
markets by encouraging their competitiveness and efficiency, ensuring their integrity and
protecting market participants against manipulation, abusive trade practices and fraud. Through
effective oversight regulation, the CFTC enables the commodity futures markets better to serve
their vital function in the nation's economy - providing a mechanism for price discovery and a
means of offsetting price risks.

        The CFTC operating divisions are: Office of the Chairman, Office of the Executive
Director, Office of General Counsel, Division of Clearing and Intermediary Oversight, Division
of Enforcement, Division of Market Oversight and Office of the Chief Economist. In addition to
its headquarters office in Washington, DC, the CFTC maintains offices in Chicago, Illinois;
Kansas City, Missouri; and New York, New York.


2.     OIG Responsibilities.

        The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended. OIG
was established to create an independent unit to:

       •   Promote economy, efficiency and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;




                                               2
        •    Review existing and proposed legislation, regulations and exchange rules and make
             recommendations concerning their impact on the economy and efficiency of CFTC
             programs and operations or the prevention and detection of fraud and abuse; and

        •    Keep the Chairman and Congress fully informed about any problems or deficiencies
             in the administration of CFTC programs and operations and provide
             recommendations for correction of these problems or deficiencies.

       OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations in accordance with generally accepted government auditing standards. OIG is also
required to recommend changes to existing and proposed CFTC programs and operations to
promote economy, efficiency and effectiveness and to prevent and detect fraud and abuse.

        The purpose of OIG audits generally is to ensure that:

        •    Funds have been expended in a manner consistent with related laws, regulations and
             policies;

        •    Resources have been managed effectively and efficiently;

         •   Stipulated program objectives have been achieved;

         •   Agency operations have not been subject to improper influence or corruption; and

         •   Resources have been safeguarded.

        OIG operates independently ofthe Agency and has not experienced any interference from
the CFTC Chairman in connection with the conduct of any investigation or audit, and our
investigations have been pursued regardless of the rank or party affiliation of the target. OIG has
also conducted audits without interference where it has perceived the opportunity to recommend
improvement to futures regulation efforts, again without regard to the party affiliation of any
Chairman.! No Chairman has interfered with OIG decisions regarding personnel actions,
training, travel or other expenditures, including the selection of an independent accounting firm
to conduct required CFTC financial statement audits.


3.       OIG Resources.

       OIG consists of the Inspector General, the Assistant Inspector General for Audits, an
Attorney-Advisor and a secretary. The present Inspector General assumed his position on
October 7,1990. The Assistant Inspector General joined the office in 1999, and the Attorney-
Advisor joined in 2007.


I The Inspector General Act of 1978, as amended, states: "Neither the head of the establishment nor the officer next
in rank below such head shall prevent or prohibit the Inspector General from initiating, carrying out, or completing
any audit or investigation ...." 5 U.S.C. App. 3 sec. 3(a).


                                                         3
                      COMPLETED AUDITS and REVIEWS
1.        Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA.

       In support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

       OIG reviewed all of the draft internal control reviews produced by agency staff and
provided comments to the originating divisions. OIG offered its services to the CFTC Internal
Control Committee as advisor and consultant on conducting and reporting on vulnerability
assessments and internal control reviews. OIG reported the results of its review of the final
submissions to the Chairman in its annual assurance letters to the Chairman.


2.        Evaluation of the CFTC Information Security Management Act, FISMA.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

        To provide a comprehensive review of the Commission's security program, Office of
Information Technology Services (OITS) and OIG worked jointly in gathering and interpreting
information relating to the CFTC information security program. Using the information supplied
by OITS staff, a contractor and the program managers, the Inspector General reviewed and
analyzed the information and responded in tabular form to the questions raised by the OMB
Guidance. Results of this effort were transmitted to the CFTC's ChiefInformation Officer (CIO)
in September 2008, for combination with the CIa's assessment and inclusion in the Chairman's
report to OMB.


3.        Review of Agency Use of Contractors.

          The objectives of this review were to:

     1) Determine whether the Agency has effectively employed contractors to complement its
        staff; and

     2) Present the Chairman with a complete picture of the Agency's use of contractors.




                                                   4
Status.

We examined summary information on 65 ofthe Agency's existing contracts and found nothing
to indicate that contract employees were performing inherently governmental tasks. We chose to
examine in detail the two largest Agency contracts resulting in the greatest influx of contract
employees to ensure that these tasks could not be performed by Agency employees at lesser cost.
Both contracts provided information technology (IT) services. We therefore limited our
objectives to analysis oftheir application to these two IT services contracts. We did not audit
compliance with the Federal Acquisition Regulation as it would apply to the contract award
process for these two contracts.

In the two contracts that we examined in detail, we found the Agency effectively supplemented
its full-time staff with contractors. The Agency was able to acquire skilled software
development talent that reduced development time for several major computer surveillance
systems for the futures and options markets. In another contract, we found that the Agency has
improved its delivery of help-desk services to Agency employees. For one ofthe contracts, we
recommended improving the selection of contractors; greater use of former help-desk talent to
communicate CFTC specific "fixes" (i.e., modifications to existing software) to the contract
employees; and greater monitoring and use of the help-desk logs to identify opportunities for
delivering specific assistance to Agency employees, as well as contract employees.



                         CURRENT AUDITS and REVIEWS
1.        Audit of CFTC Financial Statements for Fiscal Year 2008.

Objectives.

       In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to obtain an independent financial
statement audit each year. To this end, OIG has engaged a contractor to provide the audit effort
required to enable the contractor to render an opinion on the agency's financial statements for
Fiscal Year 2008 in accordance with generally accepted auditing standards, Government
Auditing Standards and OMB Bulletin 01-02.

The specific objectives ofthis audit include determinations whether:

          (1) The financial statements present fairly the financial position of the Commodity
          Futures Trading Commission in accordance with generally accepted accounting
          principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
          (FASAB). The five financial statements, along with all corresponding notes to be audited
          include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
          Position; (d) Statement of Budgetary Resources; and (e) Statement of Custodial Activity.

          (2) Management's assertions about the effectiveness of its internal controls for achieving
          internal control objectives described in AU Section 319 and the Federal Managers


                                                  5
          Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
          makes this determination in part by obtaining an understanding of the internal control
          policies and procedures and assessing the level of control risk relevant to all significant
          cycles, classes of transactions, and account balances. For those significant control
          policies and procedures that have been properly designed and placed in operation, the
          contractor performs sufficient tests to provide reasonable assurance as to whether the
          controls are effective and working as designed.

          The independent public accountant (IPA) limits its internal control testing to those
          controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
          the IPA is not required to test all internal controls relevant to operating objectives as
          broadly defined by the FMFIA, such as those controls relevant to achieving efficient
          operations.

          With respect to internal controls related to performance measures reported in the
          accountability report, the IPA obtains an understanding of the design of significant
          internal controls relating to the existence and completeness assertions, as required by
          OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
          controls over reported performance measures.

          (3) The agency has complied with selected provisions of laws and regulations identified
          by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
          a direct and material effect on the determination of financial statement amounts. The IPA
          limits its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.


Status.

        An independent public accounting firm was first selected on January 15,2004 to
complete the CFTC Financial Statement Audits for up to five successive years. On March 10,
2008 the Fiscal Year 2008 audit began with a meeting with senior agency managers. Further
meetings and reviews have taken place throughout this reporting period while work on the audit
is ongoing. The final audit report is to be delivered to the Office of the Inspector General in
November 2008.

        The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report "instances and reasons" when the
Agency has not met intermediate target dates established in a remediation plan to bring the
Agency's financial management system into substantial compliance with the Act. CFTC is not
subject to the requirements of the FFMIA; however, it voluntarily seeks to comply with its
requirements. During this reporting period, there were no events giving rise to a duty to report
under FFMIA.




                                                   6
     AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD
1.     Corrective Action not Completed.

       There were no instances of audit reports over six months old where corrective action had
not been completed.


2.     Corrective Action Completed.

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period. We
understand the Agency is working to implement recommendations included in the Review of
Agency Use of Contractors.


3.    Management Decision not Made.

        There is one instance of a report issued before the commencement of the reporting period
for which a management decision had not been made by the end of the reporting period. In
2006, the CFTC OIG issued a report titled "Review of the Need for a Western Regional Office in
Los Angeles." That report recommended, among other things, that the Commission review the
feasibility of reestablishing the former Los Angeles field office. That recommendation was not
carried out largely due to budget constraints. In January 2008, partially in response to a
Congressional inquiry, CFTC OIG updated its analysis and on March 12, 2008; issued a follow-
up report which reiterated the earlier recommendation. While the 2006 recommendations are
over six months old, the March report is barely over six months old. During the reporting period,
we understand that the Agency took steps to gather information and assess the feasibility of
implementation of the recommendation in the March 2008 report.



                                  INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees and other
sources concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial and
specific danger to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. One
investigation was opened and completed during this period, and two other preliminary
investigations were opened and closed during this reporting period.




                                                7
1.     Investigation Regarding the Interagency Task Force on Commodity Markets
       Interim Report on Crude Oil.

        During this reporting period, CFTC OIG began and concluded an investigation into
allegations of wrongdoing in connection with the July 22,2008 Interagency Task Force on
Commodity Markets (ITF) Interim Report on Crude Oil (Interim Report). Four U.S. Senators
questioned whether the Interim Report was based on inaccurate data, incomplete information and
flawed analysis. The four Senators also asked whether the Interim Report was issued improperly
in order to influence a Senate vote. Because the Senators did not allege violations of specific
criminal or civil statutes or regulations, CFTC OIG conducted this investigation as an
administrative investigation.

       CFTC OIG reviewed numerous drafts of the Interim Report on Crude Oil, as well as
relevant supporting data and materials. CFTC OIG also interviewed 44 individuals to ascertain
whether the information and analysis used was inaccurate, incomplete, or flawed in any way.
CFTC OIG asked the interviewees if they were aware ofthe relevant Senate vote, and also
probed whether the report's conclusions were inappropriately influenced by the CFTC Chairman,
the CFTC Chief Economist, or any other influence inside or outside the CFTC.

         CFTC OIG concluded that the evidence did not support the concerns about the substance
of the report. We did conclude that the Agency was remiss in failing to disclose certain facts
relating to the Interim Report with sufficient transparency. As a result of this action, the
reliability of the Interim Report was called into question and the concerns raised by the Senators
were well founded. The CFTC OIG transmitted detailed results of this investigation to the four
Senators on September 11, 2008.


2.     OIG Response to Allegations Regarding the Transit Subsidy Program.

        CFTC OIG received allegations regarding different aspects of the transit subsidy program
at CFTC Headquarters. Due to the idiosyncratic nature of the allegations, a full description
could reveal the identity of the target(s) and possibly the source(s) of the allegations. No
referrals were made to the Agency or law enforcement authorities for further action.


3.     OIG Response to Allegations Regarding CFTC Contracts.

       CFTC OIG received allegations regarding performance and other issues relating to
Agency contracts. One preliminary investigation was completed; a second allegation, which
appeared solely to allege a potential legal dispute, was referred to the Office of General Counsel.




                                                 8
                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTORIAL AUTHORITIES
       No matters were referred to prosecutorial authorities during the reporting period.



                        CONGRESSIONAL INQUIRIES
        OIG fielded multiple requests for assistance from members of Congress and staff during
the reporting period. Issues addressed included constituent concerns and recent OIG activities.
In addition, OIG received the previously discussed request for and concluded its investigation
concerning allegations relating to the Interagency Task Force on Commodity Markets Interim
Report on Crude Oil.



       LEGISLATIVE, REGULATORY AND RULE REVIEWS
1.     Introduction and Summary.

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. OIG also reviews all exchange rule proposals circulated to senior staff
at CFTC.

        OIG notified the responsible Divisions as to any concerns with draft and final documents
relating to legislation, rules or investigations. Formal comments were not filed with the
Commission during this reporting period.


2.     Rule Reviews Initiated in Previous Reporting Periods.

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.


3.     Rule Reviews Initiated this Reporting Period.

       No rule reviews were initiated during this reporting period.




                                                9
4.         Legislative Activities.

        OIG tracked legislation impacting programs and operations of the CFTC, and made
contact with Congressional staff concerning various agency and IG issues as appropriate. OIG
reviewed and began implementing procedures to meet website requirements imposed on
Inspectors General by the FY 2008 Consolidated Appropriations Act. In addition, OIG
continued to track the proposed Inspector General Reform Act of2008, Senate Bill 2324. The
IG serves on the legislation committee for the Executive Council on Integrity and Efficiency,
which comments on proposed amendments to the IG Act and other legislation affecting the IG
community.



                                          OTHER REVIEWS
1.         Peer Reviews.

        An important function in each Agency OIG is the peer review process. The Inspector
General community's annual report, A Progress Report to the President, Fiscal Year 2007,2
described the processes for audits and investigative peer reviews as follows:

           Government Auditing Standards require that audit organizations conducting audits
           of Federal agencies undergo peer reviews every 3 years. The IG community has
           implemented a process to meet this requirement. The purpose of the peer review
           is to determine whether the reviewed audit organization's internal quality control
           systems are adequate and provide reasonable assurance that applicable auditing
           standards, policies and procedures are met.

           Similarly, investigative peer reviews are conducted to ensure compliance with the
           requirements of the Quality Standards for Investigations and determine whether
           adequate internal safeguards and management procedures exist to ensure that law
           enforcement powers are properly exercised. 3

       During this reporting period, OIG continued to monitor the government-wide OIG peer
review schedules as communicated by the Executive Council on Integrity and Efficiency. OIG
discussed scheduling issues with our partner OIG offices as appropriate. No peer reviews were
begun or completed during this reporting period.


2.         Other Reviews.

           No other review activity took place during this reporting period.




2   http://www.ignet.gOY/randp/fy07apr.pdf.
3   Id. atp.19.


                                                    10
                SUMMARY OF EACH REPORT MADE TO
                      THE AGENCY HEAD
        No reports were made to the Agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).



                   REVISED MANAGEMENT DECISIONS
       No management decisions were revised during the reporting period.



                INSPECTOR GENERAL DISAGREEMENT
      The Inspector General did not disagree with any management decisions on OIG
recommendations during the reporting period.



                                      GAO LIAISON
        OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

        GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audit activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC
resources.




                                                 11
                      STRATEGIC PLAN FOR THE
                 OFFICE OF THE INSPECTOR GENERAL
1.     Investigative Agenda.

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. However, allegations and
complaints are also received from the general public and Congress. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because OIG
believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline phone number is (202)418-
5510.

        Because of the necessarily reactive nature of OIG's investigative program, no
investigative agenda has been established.


2.     Legislative and Regulatory Review Agenda.

        Because of the importance of this activity in a financial and economic regulatory agency,
OIG reviews proposed and final CFTC regulations, legislation and selected exchange rules using
six basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.




                                                12
        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because OIG does not initiate legislation or, generally, regulations, OIG legislative and
regulatory review program is reactive to the legislative and regulatory proposals developed by
others. Accordingly, no independent legislative and regulatory review agenda has been
established.


3.     Audit Agenda.

a. Introduction

         The primary objectives of the OIG audit agenda is to promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud
and abuse. The audit agenda and priorities for OIG are determined based on the following
factors:

       •    Adequacy of internal control systems as indicated by vulnerability assessments and
            internal control reviews recommended by OMB Circular A-123;

        •   Changes in the program conditions or particular vulnerability of the organization,
            program, activity, or function to problems or deficiencies;

        •   Current and potential dollar magnitude and likely benefits of a review on the
            efficiency or effectiveness of CFTC programs and operations;

        •   Management priorities and improvements that may be possible;

        •   Results of audits of CFTC programs and operations by other Federal agencies; and

        •   Availability of audit resources and the potential opportunity costs to the agency.


b. Annual Audits

        The following required audits are performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act, FMFIA.

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.


                                                 13
Evaluation of the CFTC Information Security Management Act, FISMA.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Audit of CFTC Financial Statements.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards
and OMB Bulletin 01-02.


c. Other Audits.

        OIG intends to focus the balance of its audit resources on the review of the management
and operation of the agency and compliance with Congressional mandates. Specifically,OIG
intends to continue to monitor the agency's use of contractors from time to time, with an
emphasis on contracts for IT services. In addition, OIG intends to focus its efforts with a view to
auditing or reviewing activities relating to the most serious management challenges facing the
CFTC.

       OIG issues an assessment ofthe most serious management challenges each year for
publication in the CFTC Performance and Accountability Report. In the past three years, OIG
has identified as management challenges the following areas of concern:

    •   Modernization of Electronic Market Surveillance
    •   Expansion of CFTC Oversight into New Markets
    •   Industry Consolidations
    •   Exchange Trading Revolutions (Growth ofDerivative Trading)
    •   Human Resources Planning
    •   Challenges in the Marketplace (Recent innovations in the industry such as the initial
        public offerings ofmajor Chicago basedfutures exchanges andfutures commission
        merchants (FCM))

OIG will seek to identify issues and to conduct audits and reviews relating to these management
challenges. Finally, OIG will stand ready to respond to issues and audit requests as they are
received from Congress, the Agency and members of the public or any other source.




                                                 14
d. Resources Required.

        OIG estimates that approximately one staff year of effort will be devoted over each of the
next five years further reviews of the agency's use of contractors. One-half staff year of effort
will be devoted over each of the next five years to the "Annual Audits" described above. All
other Audits will consume up to one and a half staff years. Because OIG resources can be
diverted at any time to an investigation or audit that responds to current concerns or allegations,
and must be completed in a timely fashion in order to be of assistance to the Agency or
Congress, it is impossible to forecast with complete accuracy how resources will be utilized from
year to year.



                        CONTACTING THE OFFICE OF THE
                            INSPECTOR GENERAL

        OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                                 15
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (April!, 2008 - September 30, 2008)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
C.   For which a management decision was
     made during the reporting period                   o               o        o
     (1)      dollar value of
              disallowed costs                          o               o        o
     ( ii )   dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                               16
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (Aprill, 2008 - September 30, 2008)


                                                             Dollar Value
                                                   Number     Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o              o
B.   Which were issued during the reporting
     period                                          o              o
     Subtotals (A + B)                               o              o
c.   For which a management decision was
     made during the reporting period                o              o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o              o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                             o              o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o              o




                                              17
